Orrick, Herrington & Sutcliffe LLP

1152 15th Street NW
Washington, DC 20005
+1-202-339-8400

January 22, 2020

www.orrick.com

Via Electronic Filing and Hand Delivery

E mbostwick@orrick.com
D +1-202-339-8483

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Melanie L. Bostwick

United States v. Riley Briones, Jr., No. 19-720

Dear Mr. Harris:
I am counsel of record for Respondent Riley Briones, Jr. in the abovecaptioned matter. Pursuant to Rule 30.4, I am writing to request a 30-day
extension of time to file Respondent’s brief in opposition to certiorari.
The petition for certiorari was docketed on December 6, 2019, after Petitioner
received two 30-day extensions. The deadline for Respondent to oppose the petition,
after one extension, is February 5, 2020. If the requested extension of time is
granted, Respondent’s brief in opposition would be due on March 6, 2020. Counsel
of record for Petitioner has consented to this request for extension of time.
Respondent respectfully requests this extension because undersigned counsel
of record has had significant pre-existing obligations in other matters during this
time, including a petition for rehearing en banc in In re Apple Inc., No. 20-104 (Fed.
Cir.), which was due and filed January 21, a reply brief in Military Veterans
Advocacy v. Secretary of Veterans Affairs, No. 19-1600 (Fed. Cir.), currently due
February 3, and a motion to dismiss in U.S. ex. rel. Purcell v. Gilead Sciences, Inc.,
No. 17-3523 (E.D. Pa.), also due February 3.
Thank you in advance for your consideration of this matter.
Respectfully submitted,
/s/ Melanie L. Bostwick
Melanie L. Bostwick

cc:

Counsel for Petitioner (via overnight mail and email)

